Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




KENTUCKY SUBSTANTIALLY MET
 MONEY FOLLOWS THE PERSON
  PROGRAM REQUIREMENTS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Lori S. Pilcher
                                               Regional Inspector General

                                                        July 2013
                                                      A-04-12-06152
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY


 Kentucky substantially met applicable requirements when claiming funds through the
 Money Follows the Person Program. Of $6,761,735 claimed, Kentucky received
 $41,646 in unallowable Federal reimbursements.

WHY WE DID THIS REVIEW

Centers for Medicare & Medicaid Services awarded Kentucky a Money Follows the Person
Rebalancing Demonstration Program (MFP) grant to help Kentucky’s long-term care systems
transition Medicaid recipients from institutions into the community. MFP encourages this
transition by increasing the use of home and community based services for long-term Medicaid
recipients. We selected MFP for review because it is a relatively new program and because the
grant totals were substantial ($6,761,735 Federal share) during our audit period (July 1, 2007,
through December 31, 2010).

Our audit objective was to determine whether Kentucky met all applicable requirements when
claiming funds through MFP.

BACKGROUND

Created by section 6071 of the Deficit Reduction Act of 2005, the MFP helps States reduce their
reliance on institutional care by developing community-based, long-term care opportunities for
the elderly and people with disabilities. The Affordable Care Act extended MFP through
September 30, 2016.

Kentucky’s Cabinet for Health and Family Services (State agency) manages MFP under its
Kentucky Transitions program. The program provided enhanced Federal medical assistance
percentage (FMAP) rates of 88.9 to 90 percent during our audit period for 12 months of
“qualified” home- and community-based services for each person transitioned from an institution
to the community. Eligibility for MFP depends on whether the transitioned individual resided in
a qualified institution and received Medicaid benefits for inpatient services furnished by the
institution.

The State also has the option of providing “supplemental” services that are necessary to
transition an eligible individual from an institution to the community. These services are one­
time costs that the State reimbursed from MFP funds at the regular FMAP rates of 77.8 to 80.61
percent during our audit period. Kentucky defines the following as supplemental services:
housing modifications, housing deposits, utility deposits, pest eradication services, and
household goods.

WHAT WE FOUND

The State agency substantially met applicable requirements when claiming funds through MFP.
The State agency correctly claimed $6,455,062 of Federal share funds. However, of the 156
MFP recipients, 2 were not eligible to receive MFP services, resulting in $9,110 in


Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)          i
overpayments. In addition, the State agency had unallowable qualified expenses for services that
were not furnished during the 12-month MFP period, resulting in an overpayment of $21,755.
Finally, the State agency lacked proper documentation for supplemental expenses for 33 MFP
recipients, resulting in $10,781 in overpayments.

These overpayments occurred because the State agency had insufficient internal controls relating
to eligibility determination, matching expenses with periods of coverage, and documenting
expenses in the MFP program. As a result, the State agency received $41,646 in unallowable
Federal reimbursements for MFP.

WHAT WE RECOMMEND

We recommend that the State agency:

    •	 refund $41,646 to the Federal Government,

    •	 strengthen its internal controls, and

    •	 establish Medicaid Management Information Systems edits to ensure that services
       claimed only during the 12-month MFP period are claimed at the enhanced FMAP rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described some of the corrective actions already taken.




Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)       ii
                                                     TABLE OF CONTENTS



INTRODUCTION ..................................................................................................................... 1


           Why We Did This Review ............................................................................................. 1


           Objective ........................................................................................................................ 1


           Background .................................................................................................................... 1

                 Medicaid Program .............................................................................................. 1

                 Money Follows the Person Demonstration Program ......................................... 1


           How We Conducted This Review.................................................................................. 2


FINDINGS ................................................................................................................................. 2


           Individuals Did Not Meet Eligibility Requirements ...................................................... 3


           Qualified Expenses Not Furnished Within MFP Period ................................................ 3


           Supplemental Services Lacked Proper Documentation ................................................. 3


           Insufficient Internal Controls and High Turnover Rate ................................................. 4


RECOMMENDATIONS ........................................................................................................... 4


STATE AGENCY COMMENTS .............................................................................................. 4


APPENDIXES


           A: Audit Scope and Methodology ................................................................................ 5


           B: Federal and State Requirements ............................................................................... 7


           C: State Agency Comments .......................................................................................... 8





Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)                                                           iii
                                          INTRODUCTION


WHY WE DID THIS REVIEW

Centers for Medicare & Medicaid Services (CMS) awarded Kentucky a Money Follows the
Person Rebalancing Demonstration Program (MFP) grant to help Kentucky’s long-term care
systems transition Medicaid recipients from institutions to the community. MFP encourages this
transition by increasing the use of home- and community-based services for long-term Medicaid
recipients. We selected MFP for review because it is a relatively new program and because the
grant totals were substantial ($6,761,735 Federal share) during our audit period (July 1, 2007,
through December 31, 2010).

OBJECTIVE

Our audit objective was to determine whether Kentucky met all applicable requirements when
claiming funds through MFP.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

Section 1115 of the Social Security Act (the Act) authorizes demonstration projects to assist in
promoting the objectives of the Medicaid program.

Money Follows the Person Demonstration Program

Created by section 6071 of the Deficit Reduction Act of 2005 (DRA), the MFP helps States
reduce their reliance on institutional care by developing home- and community-based long-term
care opportunities for the elderly and people with disabilities. The Affordable Care Act extended
MFP to through September 30, 2016.

Kentucky’s Cabinet for Health and Family Services (State agency) manages MFP under its
Kentucky Transitions program. The program provided enhanced Federal medical assistance
percentage (FMAP) rates of 88.9 to 90 percent during our audit period for 12 months of
“qualified” home- and community-based services for each person transitioned from an institution
to the community. Eligibility for MFP depends on whether the transitioned individual resided in
a qualified institution and received Medicaid benefits for inpatient services furnished by the
institution.




Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)           1
The State also has the option of providing “supplemental” services that are necessary to
transition an eligible individual from an institution to the community. These services are one­
time costs that the State reimbursed from MFP funds at the regular FMAP rates of 77.8 to 80.61
percent during our audit period. Kentucky defines the following as supplemental services:
housing modifications, housing deposits, utility deposits, pest eradication services, and
household goods.

HOW WE CONDUCTED THIS REVIEW

From July 1, 2007, through December 31, 2010, the State agency claimed approximately
$6,761,735 (Federal share) in MFP expenditures for 156 MFP recipients. Of these expenditures,
we reviewed $6,496,708, which included all of the MFP enhanced FMAP qualified expenditures,
all of the regular FMAP supplemental expenditures, and a judgmental sample of administrative
expenditures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                              FINDINGS

The State agency substantially met applicable requirements when claiming funds through MFP.
The State agency correctly claimed $6,455,062 of Federal share funds. However, of the 156
MFP recipients, 2 were not eligible to receive MFP services resulting in $9,110 in overpayments.
Specifically:

    •	 1 individual did not reside in an inpatient facility for at least 6 months prior to 

       transitioning into MFP resulting in an overpayment of $6,558 and


    •	 1 individual was not receiving Medicaid benefits immediately before transitioning into
       MFP resulting in an overpayment of $2,552.

In addition, the State agency had unallowable qualified expenses for services that were not
furnished during the 12-month MFP period, resulting in an overpayment of $21,755. Finally, the
State agency lacked proper documentation for supplemental expenses for 33 MFP recipients,
resulting in $10,781 in overpayments.

These overpayments occurred because the State agency had insufficient internal controls relating
to eligibility determination, matching expenses with periods of coverage, and documenting
expenses in the MFP program. Specifically, the internal controls were not sufficient to
determine the eligibility of two individuals and the State agency selected its qualified expense
claims data by paid date instead of by service date. Furthermore, the State agency’s high



Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)          2
personnel turnover rate contributed to unreliable records maintenance for both supplemental and
qualified expenses. As a result, the State agency received $41,646 in unallowable Federal
reimbursements for MFP.

For details on the Federal and State requirements related to MFP, see Appendix B.

INDIVIDUALS DID NOT MEET ELIGIBILITY REQUIREMENTS

On the basis of our review of the 156 MFP recipients’ transition dates, inpatient claims data, and
long-term claims data, the State agency claimed payment for services for 2 individuals who were
not eligible to receive enhanced FMAP, resulting in $9,110 in overpayments.

The DRA, section 6071(b)(2)(A)(i), defines an eligible individual for the MFP demonstration
project as an individual who has resided in an inpatient facility for at least 6 months 1 before
participating in MFP. However, one MFP recipient did not meet eligibility requirements because
he had not resided in an inpatient facility for 6 months prior to transitioning. This ineligibility
resulted in an overpayment of the MFP Federal Share of expenses totaling $6,558.

The DRA, section 6071(b)(2)(A)(ii) requires eligible individuals to be receiving Medicaid
benefits for inpatient services furnished by the inpatient facility at which they reside. However,
one recipient was receiving Medicare, rather than Medicaid, benefits at the inpatient facility at
which he resided. This receipt of Medicare benefits made the individual ineligible for MFP and
resulted in a $2,552 overpayment of the Federal share of expenses for the recipient.

QUALIFIED EXPENSES NOT FURNISHED WITHIN MFP PERIOD

Section 6071(b)(7) of the DRA defines qualified expenditures as expenditures for services
furnished during the 12-month period beginning on the date the individual is discharged from an
inpatient facility. Section 6071(e)(1)(A) further explains that qualified expenditures are paid at
an MFP enhanced FMAP rate. Out of 25,570 line items that the State agency claimed as
qualified expenses, 838 were for ineligible services furnished either before the individual
transitioned into MFP or after the 12-month MFP eligibility period. These ineligible services
resulted in $21,755 (Federal share) in overpayments of enhanced FMAP.

SUPPLEMENTAL SERVICES LACKED PROPER DOCUMENTATION

According to section 1902(a)(27) of the Act, providers must keep records as necessary to
disclose the extent of the services provided to individuals receiving assistance and provide these
records to the State agency or the Secretary of Health and Human Services upon request.
However, the State agency either did not have receipts or lacked other documentation for the
supplemental services provided to 33 of the 156 MFP recipients. This lack of documentation
resulted in overpayments totaling $10,781 (Federal share).


1
 Section 2403 of the Patient Protection and Affordable Care Act of 2010 amended the Deficit Reduction Act by
changing the 6-month requirement to 90 days, effective April 22, 2010.



Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)                       3
INSUFFICIENT INTERNAL CONTROLS AND HIGH TURNOVER RATE

These overpayments occurred because the State agency had insufficient internal controls relating
to eligibility determination, matching expenses with periods of coverage, and documenting
expenses in the MFP program. Specifically, the internal controls were not sufficient to
determine the eligibility of two individuals, and the State agency selected its qualified expense
claims data by paid date instead of by service date. Furthermore, the State agency’s high
personnel turnover contributed to unreliable records maintenance for both supplemental and
qualified expenses.

As a result of these overpayments, the State agency received a total of $41,646 in unallowable
Federal reimbursements.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •	 refund $41,646 to the Federal Government,

    •	 strengthen its internal controls, and

    •	 establish Medicaid Management Information System (MMIS) edits to ensure that
       services claimed only during the 12-month MFP period are claimed at the enhanced
       FMAP rate.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described some of the corrective actions already taken. The State
agency’s comments are included in their entirety as Appendix C.




Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)         4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE


Our audit covered the period July 1, 2007, through December 31, 2010. During this period, the
State agency claimed $6,761,735 (Federal share) for MFP. Of these expenditures, we reviewed
$6,496,708, which included all of the MFP enhanced FMAP rates of 88.9 to 90 percent during
our audit period for qualified expenditures, all of the regular FMAP rates of 77.8 to 80.61
percent during our audit period for supplemental expenditures, and a judgmental sample of
administrative expenditures.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Instead, we reviewed only those internal controls related to our objective.

We performed our fieldwork at the Kentucky Cabinet for Health and Family Services offices in
Frankfort, Kentucky, from April through October 2012.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed Federal and State laws, regulations, and guidance and the MFP Kentucky
       Transitions Operational Protocol;

    •	 reviewed the Program Announcement and Special Terms and Conditions for the Federal
       MFP program grant;

    •	 held discussions with CMS officials to understand the Federal MFP;

    •	 held discussions with State agency officials to understand State policies and controls for
       claiming Federal reimbursement for MFP;

    •	 reviewed the MMIS claims data for long-term, inpatient, and eligibility databases for
       MFP recipients;

    •	 reviewed Medicare inpatient facility claims for MFP recipients;

    •	 obtained MFP qualified expense claims data from the State agency for the audit period;

    •	 obtained supplemental expense documentation; and

    •	 selected a judgmental sample of administrative expenses.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)            5
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)       6
                  APPENDIX B: FEDERAL AND STATE REQUIREMENTS


FEDERAL


The DRA, section 6071(b)(2)(A) defines an individual eligible for MFP as an individual who
immediately before participating in MFP resides and has resided in an inpatient facility for at
least 6 months. 2 The individual must also be receiving Medicaid benefits for inpatient services
furnished by such inpatient facility.

Section 6071(b)(7) of the DRA defines qualified expenditures as those for an eligible individual
participating in MFP for services furnished during the 12-month period beginning on the date the
individual is discharged from an inpatient facility. Section 6071(e)(1)(A) further explains that
qualified expenditures are paid at an MFP enhanced FMAP rate.

According to section 1902(a)(27) of the Act, providers must keep records as necessary to
disclose the extent of the services provided to individuals receiving assistance. Providers must
provide these records to the State agency or the Secretary of Health and Human Services upon
request.

STATE

The initial MFP Program Announcement 3 provides for optional one-time supplemental expenses
to assist individuals in transitioning into the community. Kentucky defines the supplemental
services in their MFP Kentucky Transitions Operational Protocol as either a housing
modification up to $15,000 or 10 percent of the value of the home and any combination of a list
of services up to $2,000, such as housing deposits, utility deposits, pest eradication services,
household goods, etc.




2
 Section 2403 of the Patient Protection and Affordable Care Act of 2010 amended the Deficit Reduction Act by
changing the 6-month requirement to 90 days, effective April 22, 2010.
3
    Funding Opportunity No.: HHS-2007-CMS-RCMFTP-0003.


Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)                       7
                         APPENDIX C: STATE AGENCY COMMENTS





                        CABINET FOR HEA LTH AND FAMILY SERV ICES
                          DEPARTMENT FOR MEDICA I D SERV I C E S

 Steven L Beshear                                                                         Audrey Tayse Haynes
 Governor                                         275£ Moln $1, 61"·1\                    Seaelary
                                                  ,.,.nldftl1, I(V 4~1
                                                    (502}-1
                                                                                          Lawrence Kissner
                                                    WWti enta.ky.gov
                                                                                          Commissioner



  May22, 2013

  Report Number:       A-o4-12-ll6152

  Lori S. Pilcher
  Regional Inspector General for Audit Services
  6t Forsyth Street, SW, Suite 3T41
  Allanta. GA 30303


  Dear Ms. Pilcher:

  Thank you for the U.S. Department of Health and Human Services, Office of Inspector General, draft report
  entHied Ken/Vcky Substantially Met Money Follows the Person Program Requirements.

  Kentucky's Money Follows 1he Person (MFPJ staH have reviewed the report and have prepared the enclosed
  statements of concurrence.

  If you have any questions regarding this response, please do not hes"ate to contacl Kentucky's MFP Project
  Director, Marta I. Smaltz-Wal~er, at (502) 564·0330 or lhrough email at Marta.Smaltztky.gov.


                                                               Sincerely,

                                                                ~ -t lvu-r<
                                                               NeviDe w'ISe
                                                               Deputy Commissioner




Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)                       8
Money Follows tho Person
Kentucky Transitions
Offlc:e of Inspector General
Health and Human Services
Report Number A.04-12-o6152

Kentucky Responses to Draft Report

Based on Audit of 2008 - 2010 records; conducted April 24- May 4, 2012


findings:

1 -The State agency aubstanllally met applicable requirements when claiming funds through
MFP. The State agency correctly claimed $6,455,062 of Federal share funds. However, of the 156
MFP recipients, 2 wera not eligible to receive MFP services, resulting in S9, 110 In overpayments.

Kentucky MFP concurs with the findings.

During the audited timelrame, Kentucky MFP's data recording was primarily paper·based. Since that
time, Kentucky MFP's data records are fully electronic and subject to more stringent Internal oontrols
and audits.

2 -The State agency had unallowable qualified er.penses for services that were not furnished
during the 12-month MFP period, resulting in an overpayment of $21,755.

Kentucky MFP concurs with the f indings.

During the audrted timeframe, Kentucky MFP's data recording was primarily paper-based. Since that
time, Kentucky MFP's data records are fully electronic and subject to more stringent internal controls
and audits.

3- The State agency tacked proper documentation for supplemental expenses for 33 MFP
recipients, resulting In $10,781 In overpayments.

Kentud<y MFP concurs with the findings.

During the audrted timeframe, Kentucky MFP's data recording for supplemental expenses was prlmar~y
paper-based and not centrally located/controlled. The processing of supplemental expenses
documentation has been expressly defined and Incorporated, Including internal controls and audits.

Recommendations:

1 - Refund $41 ,646 to the Federal Government

Kentucky MFP concurs.

2- Strengthen Internal controls

Kentucky MFP has strengthened internal controls through written procedure definitions, contract
mod~lcations detailing procedures, and internal audits.




Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)                 9
3 - Establish Medicaid Man8gement lnfonnlltion Syntms edb to eneure th.t Mt"VVcH ctilimed
    only during the 12-month MFP period . . dalmed lit the enhanced FMAP rate

Kentucky MfP has esta ished MMIS edits and closely monitors the data In regard to the defined 12­
month MFP period.




Kentucky Substantially Met Money Follows the Person Program Requirements (A-04-12-06152)            10
